SEMIANNUAL REPORT TO THE CONGRESS

   October 1, 2009 – March 31, 2010

      Office of Inspector General
SEMIANNUAL REPORT TO THE CONGRESS
     OCTOBER 1, 2009 – MARCH 31, 2010

     OFFICE OF INSPECTOR GENERAL

   NATIONAL ENDOWMENT FOR THE ARTS
                                                                           April 30, 2010


MEMORANDUM

TO:            Rocco Landesman
               Chairman

FROM:          Tonie Jones
               Acting Inspector General

SUBJECT:       Semiannual Report to the Congress: October 1, 2009 – March 31, 2010


The Inspector General Act of 1978 (Public Law 95-452), as amended, calls for the preparation of
semiannual reports to the Congress summarizing the activities of the Office of Inspector General (OIG)
for the six-month periods ending each March 31 and September 30. I am pleased to enclose the
report for the period from October 1, 2009 to March 31, 2010.

The Inspector General’s report is intended to cover audits, inspections, evaluations, investigations and
other reviews conducted by the OIG as well as our review of the OMB Circular A-133 audits conducted
by independent auditors. The report also indicates the status of management decisions whether to
implement or not to implement recommendations made by the OIG. The former President’s Council
on Integrity and Efficiency developed the reporting formats for Tables I and II to ensure consistent
presentation by the Federal agencies. The tables provide only summary totals and do not include a
breakdown by auditee.

The Act requires that you transmit this report to the appropriate committees of the Congress within 30
days of receipt, together with any comments you may wish to make. Comments that you might offer
should be included in your "Report on Final Action," a management report (prepared by the Office of
the Deputy for Management & Budget on your behalf) that is required to be submitted along with the
Inspector General’s report. We will work closely with your staff to assist in the preparation of the
management report. The due date for submission of both reports to the Congress is May 30, 2010;
this, too, will be handled by the Office of the Deputy for Management & Budget.

I appreciate the continuing support we have received from the Chairman’s Office and your managers
throughout the Agency. Working together, I believe we have taken positive steps to improve Agency
programs and operations. We look forward to continuing these efforts.
                                   TABLE OF CONTENTS

                                                                                            PAGE


NATIONAL ENDOWMENT FOR THE ARTS                                                               1

OFFICE OF INSPECTOR GENERAL                                                                   1

SUMMARY OF WORK COMPLETED BY THE OIG                                                          2

Audits/Inspections/Evaluations/Reviews                                                        2
Audit Resolution                                                                              2
Inspections                                                                                   2
Investigations                                                                                2
Indirect Cost Rate Negotiations                                                               2
Review of Legislation, Rules, Regulations and Other Issuances                                 2
Technical Assistance                                                                          3
Website                                                                                       3
Other Activities                                                                              3

SECTIONS OF REPORT                                                                            4

SECTION 1 - Significant Problems, Abuses and Deficiencies                                     4

SECTION 2 - Recommendations for Corrective Action                                             4

SECTION 3 - Recommendations in Previous Reports on Which
             Corrective Action Has Not Been Implemented                                       4

SECTION 4 - Matters Referred to Prosecuting Authorities                                       4

SECTION 5 - Denials of Access to Records                                                      4

SECTION 6 - Listing of Reports Issued and Hotline Contacts                                    5

SECTION 7 - Listing of Particularly Significant Reports                                       6

SECTION 8 - Statistical Tables Showing Total Number of Audit Reports, Inspection Reports,
            and Evaluation Reports and the Dollar Value of Questioned Costs                   6

SECTION 9 - Statistical Tables Showing Total Number of Audit Reports, Inspection Reports,
            and Evaluation Reports and the Dollar Value of Recommendations
            That Funds be Put to Better Use by Management                                     6

SECTION 10 - Audit Reports, Inspection Reports, and Evaluation Reports Issued Before
            the Commencement of the Reporting Period for Which No Management
            Decision Has Been Made by the End of the Reporting Period                         6
                                   TABLE OF CONTENTS

                                                                                    PAGE


SECTION 11 - Significant Revised Management Decisions Made During the Period           7

SECTION 12 - Significant Management Decisions With Which the Inspector
             General Disagrees                                                         7


TABLE I - Inspector General Issued Reports With Questioned Costs                       8

TABLE II - Inspector General Issued Reports With Recommendations That Funds
           Be Put To Better Use                                                        9

Definitions of Terms Used                                                      Appendix A
NATIONAL ENDOWMENT FOR THE ARTS
Founded in 1965, the National Endowment for the Arts (NEA) has offered assistance to a wide range
of non-profit organizations and individuals that carry out arts programming as well as to all the state
arts agencies. The NEA supports exemplary projects throughout the artistic disciplines. Grants are
awarded for specific projects rather than for general operating or seasonal support. Most NEA grants
must be matched dollar for dollar with non-federal funds. For FY 2009, the NEA received an
appropriation of $167.5 million from the Omnibus Appropriations Act of 2010. In addition, the NEA
received $50 million in 2009 under the American Recovery and Reinvestment Act of 2009 (Recovery
Act). These additional funds do not require matching.

OFFICE OF INSPECTOR GENERAL
The Inspector General Act Amendments of 1988, Public Law 100-504, amended the Inspector General
Act of 1978, Public Law 95-452, and required the establishment of independent Offices of Inspector
General (OIG) at several designated Federal entities and establishments, including the National
Endowment for the Arts. The mission of the OIG is to:

-      Conduct and supervise independent and objective audits, inspections and evaluations relating
         to NEA programs and operations;

-      Promote economy, effectiveness, and efficiency within the NEA;

-      Prevent and detect fraud, waste, and abuse in NEA programs and operations;

-      Review and make recommendations regarding existing and proposed legislation and
         regulations relating to NEA programs and operations; and

-      Keep the NEA Chairman and the Congress fully informed of problems in Agency programs and
         operations.

On October 14, 2008, the President signed the Inspector General Reform Act of 2008, Public Law
110-409. The 2008 Act amends the previous IG Act of 1978 to enhance the independence of the
Inspectors General, to create a Council of the Inspectors General on Integrity and Efficiency, and for
other purposes.

This semiannual report summarizes the OIG's major activities, initiatives, and results for the six-month
period ending March 31, 2010. During the period the OIG consisted of three auditors. The Agency is
now actively recruiting to fill the Inspector General position (at the SES level). There is no investigator
on the staff. In order to provide a reactive investigative capability, we have a Memorandum of
Understanding with the Inspector General of the General Services Administration (GSA) whereby the
GSA's OIG agrees to provide investigative coverage for us on a reimbursable basis as needed. (No
investigative coverage from GSA was needed during the recent six-month period.) We also have a
Memorandum of Understanding with the National Science Foundation's (NSF) Office of Inspector
General that details procedures to be used for providing the OIG with legal services pursuant to the
new requirements reflected in the 2008 Act. An NSF OIG staff member has been assigned to provide
such services on an as-needed basis.




                                                                                                      1
SUMMARY OF WORK COMPLETED BY THE OIG
During the six-month period ending March 31, 2010, the OIG conducted the following audits,
inspections, evaluations, reviews, investigations, and other activities.

Audits/Inspections/Evaluations/Reviews

During the recent semiannual period, the OIG issued six reports. The reports were based on
audits/evaluations/reviews performed by OIG personnel. Overall, our reports contained 20
recommendations, 11 of which were related to systems deficiencies at grantee organizations and nine
recommendations related to systems deficiencies at the NEA.

Audit Resolution

At the beginning of the six-month period, there were two reports awaiting a management decision to
allow or disallow questioned costs totaling $78,100 and potential refunds totaling $32,400. At the end
of the period, the two reports remained outstanding. Both organizations have submitted documentation
to the OIG to support the questioned costs. However, a management decision cannot be made until
the review has been completed. (See Table I).

Inspections

The OIG did not conduct any inspections during the recent six-month period.

Investigations

The OIG did not open any new allegation cases during the recent six-month period. The one case
opened prior to the start of the period remains open at the end of the period. No criminal
investigations were performed during the period.

Indirect Cost Rate Negotiations

Indirect costs are incurred for common or joint objectives, which cannot be readily and specifically
identified with a particular project or activity. The costs of operating and maintaining facilities,
depreciation or use allowances, and administrative salaries and supplies are typical examples of costs
that nonprofit organizations usually consider to be indirect.

Indirect cost rates are negotiated by agreement between a non-Federal organization and a Federal
agency (usually the agency that furnishes the preponderance of Federal funding) that acts on behalf of
all Federal agencies in approving rates with the organization. During this period, the OIG negotiated
three indirect cost rate agreements with NEA grantee organizations.

Review of Legislation, Rules, Regulations and Other Issuances

The OIG is required to review and comment on proposed legislation and regulations for their potential
impact on the Agency and its operations. During this reporting period, the OIG provided analyses and
written commentaries on Agency and other government publications/reports and regulations.




                                                                                                 2
Technical Assistance

The OIG provided technical assistance to NEA grantees and their independent auditors. Our efforts
included, for example, clarifying and interpreting the audit requirements of OMB Circular A-133,
“Audits of States, Local Governments, and Non-Profit Organizations," explaining alternative methods
of accounting for indirect costs, and advising some of the first-time and smaller organizations on
implementing practical accounting systems and internal controls sufficient to assure compliance with
their grant agreements.

The OIG also assisted Agency staff with technical issues related to auditing, accounting, and audit
followup.

Website

The OIG maintains an ongoing Internet presence (www.arts.gov/about/OIG/Contents.html) to assist
and inform NEA grantees and Agency employees. The site was recently updated to include pages for
Reports; Recovery Act including a section for Training and Resources; Reporting Fraud, Waste and
Abuse; Career Opportunities; and Other Resources.

Other Activities

During this period, the OIG took part in the activities of the Council on Inspectors General for Integrity
and Efficiency (Council), and allocated resources for responding to information requests from and for
the Congress and other agencies. In addition, we have participated in various efforts by the Council
and other federal agencies to develop effective oversight strategies for Recovery Act 1 activities. The
OIG has performed various oversight activities of the Agency’s Recovery Act program, including
evaluating the agency’s process for ensuring Recovery Act fund recipients submit accurate, complete,
and timely data, as required by Section 1512 of the Recovery Act. The OIG also provided oversight of
the Agency’s independent auditors as they completed the Agency’s annual financial statement audit
for the fiscal year ending September 30, 2009.




1
    “American Recovery and Reinvestment Act of 2009,” effective February 17, 2009
                                                                                                     3
                                SECTIONS OF REPORT
The following sections of this report discuss the 12 areas specifically required to be included
according to Section 5(a) of the IG Act of 1978, as amended. Table I shows Inspector General
issued reports with questioned costs and Table II shows that there were no Inspector General
issued reports with recommendations that funds be put to better use.

SECTION 1 – Significant Problems,                    SECTION 2 – Recommendations for
Abuses and Deficiencies                              Corrective Action

Audits, evaluations and other reviews                To assist grantees in correcting or avoiding
conducted by OIG personnel during the                the deficiencies identified in Section 1, the
current and prior periods have disclosed a           OIG utilizes two “Financial Management
few instances of deficient financial                 Guides,” one for non-profit organizations and
management practices in some organizations           the other for state and local governments.
that received NEA grants. Among these                The guides are not offered as complete
were:                                                manuals of procedures; rather, they are
                                                     intended to provide practical information on
   Reported grant project costs did not agree        what is expected from grantees in terms of
   with the accounting records, e.g., financial      fiscal accountability. The guides are available
   status reports were not always prepared           at www.arts.gov/about/OIG/Guidance.html.
   directly from the general ledger or
   subsidiary ledgers or from worksheets             The guides discuss accountability standards
   reconciled to the accounts;                       in the areas of financial management, internal
                                                     controls, audit, and reporting. The guides
   Personnel costs charged to grant projects         also contain sections on unallowable costs
   were not supported by adequate                    and shortcomings to avoid. In addition, the
   documentation, e.g., personnel activity           guides include short lists of useful references
   reports were not maintained to support            and some sample documentation forms.
   allocations of personnel costs to NEA
   projects when required;                           SECTION 3 – Recommendations in
                                                     Previous Reports on Which Corrective
   The amount allocated to grant projects for        Action Has Not Been Implemented
   common (indirect) costs which benefited
   all projects and activities of the                There were no significant recommendations
   organization was not supported by                 in previous reports on which corrective action
   adequate documentation; and                       has not been implemented.

                                                     SECTION 4 – Matters Referred to
   Grantees needed to improve internal
                                                     Prosecuting Authorities
   controls, such as ensuring proper
   separation of duties to safeguard                 No matters were referred to prosecuting
   resources and including procedures for            authorities during this reporting period.
   comparing actual costs with the budget.
                                                     SECTION 5 – Denials of Access to Records

                                                     No denials of access to records occurred
                                                     during this reporting period.




                                                                                           4
             SECTION 6 – Listing of Reports Issued and OIG Hotline Contacts



REPORT                                                                                                                                        DATE OF
NUMBER                                                                TITLE                                                                   REPORT




                                      Financial Management System & Compliance Evaluation Reports

SCE-10-01     University Music Society, MI ...........................................................................................................................   01/28/10
SCE-10-02     Mosaic Youth Theatre of Detroit, MI ...............................................................................................................        03/30/10


                                                                 Limited Scope Audit Reports

LS-10-01      Family Resources, Inc., FL .............................................................................................................................   10/30/09
                                                                                                                                                                                    04

                                                                            Audit Report

A-10-01       Audit of NEA Financial Statements as of September 30, 2009 and 2008 ........... ……………………..……..…                                                            11/9/09


                                                                     Special Review Reports

ARRA-10-01    Evaluation of NEA ARRA Data Quality Process……………………..……..…………………………..…….                 10/29/09
R-10-02       NEA Annual Federal Information Security Management and Privacy Report 2009 …………………………….. 01/22/10


                                                                 TOTAL REPORTS – 6



                                                                       OIG Hotline Contacts


                            Telephone Calls………………………………………………………………….                                                                     4
                            Email ……………………………………………………………………………..                                                                         9
                            Standard Mail…………………………………………………………………….                                                                      1
                            Referred by Other Sources……………………………………………………..                                                               0
                            Fax………………………………………………………………………………..                                                                           0

                                                              TOTAL CONTACTS – 14




                                                                                                                                                                 5
SECTION 7 – Listing of Particularly               1. LS-09-02 – Wisconsin Arts Board –
Significant Reports                                  Issued 06/15/09

There were no particularly significant reports    Recommendation
during the reporting period.
                                                  Grantee should provide information to
SECTION 8 – Statistical Tables Showing            support the questioned costs of $50,000
Total Number of Audit Reports, Inspection         claimed under Grant No. 05-5500-7110 and
Reports, and Evaluation Reports and the           $8,000 under Grant No. 06-4557-7069. If
Dollar Value of Questioned Costs                  the documentation submitted is not deemed
                                                  satisfactory, a refund of up to $29,000 may
Table I of this report presents the statistical   be required.
information showing the total number of audit
reports, inspection reports, and evaluation       Reason No Management Decision Was
reports and the total dollar value of             Made
questioned costs.
                                                  Grantee’s response included information that
SECTION 9 – Statistical Tables Showing            it believes supports the questioned costs.
Total Number of Audit Reports, Inspection         The information will be reviewed shortly and
Reports, and Evaluation Reports and the           a management decision should be made by
Dollar Value of Recommendations that              9/30/10.
Funds be Put to Better Use by
Management                                        2. LS-09-03 – Virginia Commission for
                                                     the Arts – Issued 08/12/09
As shown on Table II, there were no audit
reports, inspection reports and evaluation        Recommendation
reports with recommendations that funds be
put to better use by management.                  Grantee should provide information to
                                                  support the questioned costs of $20,100
SECTION 10 – Audit Reports, Inspection            claimed under Grant No. 06-4557-7066. If
Reports, and Evaluation Reports Issued            the documentation submitted is not deemed
Before the Commencement of the                    satisfactory, a refund of up to $3,400 may be
Reporting Period for Which No                     required.
Management Decision Has Been Made by
the End of the Reporting Period                   Reason No Management Decision Was
                                                  Made
As shown on Table I, there were two audit
reports issued before the commencement of         Grantee’s response included information that
the reporting period for which no                 it believes supports the questioned costs.
management decision has been made by the          The information will be reviewed shortly and
end of the reporting period.                      a management decision should be made by
                                                  9/30/10.




                                                                                     6
SECTION 11 – Significant Revised              SECTION 12 – Significant Management
Management Decisions Made During the          Decisions With Which the Inspector
Period                                        General Disagrees

No significant revised management decisions   There were no significant management
were made during the reporting period.        decisions that the Inspector General
                                              disagreed with during the reporting period.




                                                                                 7
                                                      TABLE I

                      INSPECTOR GENERAL ISSUED REPORTS
                            WITH QUESTIONED COSTS

                                                                      QUESTIONED UNSUPPORTED                    POTENTIAL
                                                      NUMBER              COSTS               COSTS              REFUNDS1
  A. For which no management decision
      has been made by the commencement
      of the reporting period                               2               78,100             (78,100)              32,400


  B. Which were issued during the reporting
      period                                               0                       0                  (0)                   0


      Subtotals (A + B)                                     2                78,100            (78,100)              32,400


  C. For which a management decision was
      made during the reporting period                      0                       0                 (0)                   0


       (i)       Dollar value of disallowed costs           0                       0                 (0)                   0


       (ii)      Dollar value of costs not
                 disallowed                                 0                       0                 (0)                   0


  D. For which no management decision has
      been made by the end of the reporting
      period                                                2                78,100            (78,100)              32,400


      Reports for which no management
      decision was made within six months of
      issuance                                              2                78,100            (78,100)              32,400




1/ The potential refund amount usually will not equal the questioned costs amount because matching requirements must be

   considered and the grantee may be either under or over matched. In addition, historically, the potential refund generally is
   reduced significantly as a result of the audit followup process, which includes examination of documentation submitted by the
   grantee.




                                                                                                                           8
                                      TABLE II

         INSPECTOR GENERAL ISSUED REPORTS
WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

                                                            DOLLAR
                                                   NUMBER    VALUE

 A. For which no management decision has been
    made by the commencement of the reporting
    period                                           0        0

 B. Which were issued during the reporting
    period                                           0        0

    Subtotals (A + B)                                0        0

 C. For which a management decision was made
    during the reporting period                      0        0

    (i) dollar value of recommendations
        that were agreed to by management            0        0

        -   based on proposed management
            action                                   0        0

       -    based on proposed legislative action     0        0

    (ii) dollar value of recommendations
         that were not agreed to by management       0        0

 D. For which no management decision has been
    made by the end of the reporting period          0        0

    Reports for which no management decision
    was made within six months of issuance           0        0




                                                                  9
                                                                                   APPENDIX A

                            DEFINITIONS OF TERMS USED

The following definitions apply to terms used in reporting audit statistics:


Questioned Cost                        A cost that the Office of Inspector General (OIG)
                                       questioned because of alleged violation with a provision of
                                       a law, regulation, contract, or other agreement or
                                       document governing the expenditure of funds; such cost is
                                       not supported by adequate documentation; or the
                                       expenditure of funds for the intended purpose is
                                       unnecessary or unreasonable.

Unsupported Cost                       A cost which the OIG questioned because the cost was not
                                       supported by adequate documentation at the time of the
                                       audit.

Disallowed Cost                        A questioned cost that management has sustained or
                                       agreed should not be charged to the NEA grant or
                                       cooperative agreement.

Funds Be Put To Better Use             A recommendation made by the OIG that funds could be
                                       used more efficiently if management took actions to
                                       implement and complete the recommendation.

Management Decision                    Management's evaluation of the findings and
                                       recommendations contained in the audit report and the
                                       issuance of management’s final decision, including actions
                                       to be taken. Interim decisions and actions are not
                                       considered final management decisions for the purpose of
                                       the tables in this report.

Final Action                           The completion of all actions that management has
                                       concluded in its management decision with respect to audit
                                       findings and recommendations. If management concluded
                                       that no actions were necessary, final action occurs when a
                                       management decision was made.




                                                                                            10
                      REPORTING WRONGFUL ACTS


Anyone, including Agency employees, who learns about or has reason to suspect the occurrence
of any unlawful or improper activity related to NEA operations or programs, should contact the
OIG immediately. A complaint/referral may be reported using any of the following methods:


               Toll-free OIG Hotline: 1-877-535-7448
               Local Calls: 202-682-5479
               Fax: 202-682-5649
               Email: oig@arts.gov
               Website: www.arts.gov/about/oig/fraud.html

You may also visit or write us at the National Endowment for the Arts, Office of Inspector
General, Room 601, 1100 Pennsylvania Avenue, NW, Washington, DC 20506.

When contacting the OIG, it will help if you have answers to the following questions:

       Who are the parties involved (names, addresses and phone numbers if possible);
       What is the suspected activity (specific facts of the wrongdoing);
       When and where did the wrongdoing occur;
       How did you learn about the activity (from a third party, actual observation, conclusion drawn from
       observing or performing different activities, etc.); and
       Where can you be contacted or when will you contact us again.



The OIG will not disclose the identity of a complainant or informant without consent, unless the
Inspector General determines that such disclosure is unavoidable during the course of the
investigation. You may remain anonymous, if you choose. Federal employees are protected
against reprisal for disclosing information to the Inspector General unless such disclosure was
knowingly false.




                                                                                                             11
     CHAIRMAN’S SEMIANNUAL REPORT
            ON FINAL ACTION
RESULTING FROM AUDIT REPORTS, INSPECTION
   REPORTS, AND EVALUATION REPORTS

   October 1, 2009 through March 31, 2010




                 Submitted
                 May 2010
                             TABLE OF CONTENTS




INTRODUCTION                                                               1

REPORT ON FINAL ACTION RESULTING FROM AUDIT REPORTS,
INSPECTION REPORTS AND EVALUATION REPORTS

  Section 1    Comments Relating to the Inspector General's Report         2

  Section 2    Management Report on Final Action on Audits, Inspections,
               and Evaluations with Disallowed Costs for the Six-Month
               Period Ending March 31, 2010                                3

  Section 3    Management Report on Final Action on Audits, Inspections,
               and Evaluations with Recommendations to Put Funds to
               Better Use for the Six-Month Period Ending March 31, 2010   3

  Section 4    Audit Reports, Inspection Reports, and Evaluation Reports
               for Which a Management Decision Was Made Prior to
               April 1, 2010, but on Which Final Action Has Not Occurred   3

  Table A      Management Report on Final Action on Audits, Inspections,
               and Evaluations with Disallowed Costs for the Six-Month
               Period Ending March 31, 2010                                4

  Table B      Management Report on Final Action on Audits, Inspections,
               and Evaluations with Recommendations to Put Funds to
               Better Use for the Six-Month Period Ending March 31, 2010   5
                                  INTRODUCTION


The Inspector General Act of 1978, as amended by the Inspector General Act Amendments of
1988 (Public Law 100-504), established independent, objective units within Federal agencies
for the following purposes:

   •   To supervise and conduct audits and investigations of agency programs and operations;

   •   To lead, coordinate, and recommend policies for promoting economy, efficiency, and
       effectiveness in the administration of programs and operations, and to prevent and
       detect fraud and abuse therein; and

   •   To keep the agency head and the Congress informed about related problems and
       deficiencies and associated corrective action.

On October 14, 2008, the President signed the Inspector General Reform Act of 2008 (Public
Law 110-409). The 2008 Act amends the previous IG Act of 1978 to enhance the
independence of the Inspectors General, to create a Council of the Inspectors General on
Integrity and Efficiency, and for other purposes.

Section 106(a) of P.L. 100-504 requires the Inspector General to report semiannually on the
office’s activities for the preceding six-month periods ending March 31st and September 30th.
The report must (1) address significant problems, abuses, and deficiencies in the management
of agency programs and operations identified during the reporting period, and (2) identify
recommendations for corrective action. Section 106(b) directs the Inspector General to furnish
this report within 30 days to the agency head, who is required to prepare a separate report on
management decisions resulting from audit reports, inspection reports, evaluation reports, the
status of disallowed costs, and final actions taken during the corresponding period, including
any comments deemed appropriate. The agency head must transmit both reports to the
Congress within the ensuing 30 days.

Accordingly, the Chairman presents the Arts Endowment’s management report for the period
October 1, 2009 through March 31, 2010.




                                              1
        REPORT ON FINAL ACTION RESULTING FROM AUDIT REPORTS,
            INSPECTION REPORTS, AND EVALUATION REPORTS


Section 1.   Comments Relating to the Inspector General's Report

             A. Comments on OIG’s Summary Section

             Audits/Inspections/Evaluations/Reviews. As reported in the Inspector General’s
             Semiannual Report to the Congress, at the end of the reporting period there were
             two outstanding reports with questioned costs and potential refunds; management
             continues to work with the auditees to resolve the outstanding audit issues.

             When the Audit Followup Official disallows questioned costs, it is typically
             because the grantee or cooperator has responded inadequately to the Arts
             Endowment’s request for supporting documentation, such as canceled checks,
             invoices, contracts, personnel activity reports, or testimonial evidence. Agency
             funds may represent only a small portion of an awardee’s total project costs.
             Deficiencies normally are resolved through the Agency’s audit resolution process,
             and refunds are infrequent.

             Technical Assistance: Improved Oversight. The Arts Endowment places a high
             priority on ensuring that employees are well informed about policies, procedures,
             and requirements related to grants administration and audits. The Grants &
             Contracts Office routinely conducts training on various topics for Agency staff,
             including targeted one-on-one training as necessary. During the period, the
             Grants & Contracts Office and the OIG continued to provide technical assistance
             and compliance evaluations for grantees.

             Web Site. The Arts Endowment continues to provide its “My Grant at a Glance”
             feature on the Agency Web site. In addition to tracking the status of payment
             requests online, grantees can obtain historical reports of their grants back to at
             least 1988. The reports include the amount of the grant, the period of support, and
             a brief project description. The Arts Endowment continues to require electronic
             application submission through Grants.gov across all Arts Endowment programs;
             applicants unable to apply electronically through Grants.gov must request
             permission from the Agency to submit applications through an alternative
             method.

             Other Activities. Arts Endowment staff continued to work closely with the OIG
             on issues of mutual interest, such as the independent audit of the Agency’s
             financial statements for fiscal year 2009, and Recovery Act activities. As
             mentioned in the Semiannual Report, during this period the OIG consisted of
             three auditors. The Agency is now actively recruiting to fill the Inspector General
             position (at the SES level).


                                               2
             B. Comments on OIG’s Sections 1 and 2

             OIG audit, inspection, and evaluation reports on Arts Endowment awardees are
             based upon reviews conducted by the OIG itself or upon OIG analysis of audits
             completed by outside auditors. The outside audits may be performed by State
             audit agencies, by other Federal agencies (generally the agency providing the
             greatest amount of Federal funding to an organization also supported by the Arts
             Endowment), or by independent public accountants engaged by awardees.

Section 2.   Management Report on Final Action on Audits, Inspections, and Evaluations
             with Disallowed Costs for the Six-Month Period Ending March 31, 2010
             (Section 8 of the OIG Report)

             There were no audit, inspection, or evaluation reports with management decisions
             made that were awaiting final action at the beginning of the period. (See Table A).

Section 3.   Management Report on Final Action on Audits, Inspections, and Evaluations
             with Recommendations to Put Funds to Better Use for the Six-Month Period
             Ending March 31, 2010 (Section 9 of the OIG report)

             There were no audits, inspections, and evaluations with recommendations to put
             funds to better use awaiting final action as of March 31, 2010 (see Table B).

Section 4.   Audit Reports, Inspection Reports, and Evaluation Reports for Which a
             Management Decision Was Made Prior to April 1, 2010, but on Which Final
             Action Has Not Occurred

             There were no audit, inspection, or evaluation reports for which a management
             decision was made prior to April 1, 2010, on which final action has not yet
             occurred.




                                               3
                                          TABLE A

              MANAGEMENT REPORT ON FINAL ACTION
ON AUDITS, INSPECTIONS, AND EVALUATIONS WITH DISALLOWED COSTS
        FOR THE SIX-MONTH PERIOD ENDING MARCH 31, 2010


                                                       # OF    DISALLOWED   POTENTIAL
                         ITEM                        REPORTS      COSTS     REFUNDS

 A.   Audit/inspection/evaluation reports with
      management decisions on which final
      action had not been completed at the
      beginning of the reporting period.
                                                        0              $0          $0

 B.   Audit/inspection/evaluation reports on
      which management decisions were made
      during the period.
                                                        0               0           0

 C. Total audit/inspection/evaluation reports
    pending final action during the period
    (A + B).                                            0               0           0

 D. Audit/inspection/evaluation reports on
    which final action was taken during the
    period:


      1. Recoveries

        a. Collection & offsets                         0               0           0

        b. Property                                     0               0           0

        c. Other                                        0               0           0


      2. Write-offs                                     0               0           0


      3. Total (D1 + D2)                                0               0           0


 E.   Audit/inspection/evaluation reports needing
      final action at the end of the period
      (C – D3).                                         0               0          $0




                                                 4
                                            TABLE B

    MANAGEMENT REPORT ON FINAL ACTION ON AUDITS, INSPECTIONS,
AND EVALUATIONS WITH RECOMMENDATIONS TO PUT FUNDS TO BETTER USE
         FOR THE SIX-MONTH PERIOD ENDING MARCH 31, 2010

                                                                             FUNDS TO BE
                                                                     # OF      PUT TO
                                  ITEM                             REPORTS   BETTER USE


   A.   Audit/inspection/evaluation reports with management
        decisions on which final action had not been taken at
        the beginning of the reporting period.
                                                                      0          $0


   B.   Audit/inspection/evaluation reports on which
        management decisions were made during the period.
                                                                      0           0


   C. Total audit/inspection/evaluation reports pending final
      action during the period (A + B).
                                                                      0           0


   D. Audit/inspection/evaluation reports on which final action
      was taken during the period:


        1. Dollar value of recommendations
           implemented:

           a. Based on management action                              0           0
           b. Based on proposed legislative action                    0           0


        2. Dollar value of recommendations not
           implemented
                                                                      0           0


        3. Total (D1 + D2)                                            0           0

   E.   Audit/inspection/evaluation reports needing final action
        at end of the period (C – D).
                                                                      0          $0




                                                  5
